         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Audit Report




       Millions of Federal Dollars
       Remain for Colonias Projects
       Report No. 08-P-0184 

       June 23, 2008

Report Contributors:                Andrés Calderón
                                    Randy Holthaus




Abbreviations

Board         Texas Water Development Board
CWTAP         Colonias Wastewater Treatment Assistance Program
EPA           U.S. Environmental Protection Agency
FY            Fiscal Year
OCFO          Office of the Chief Financial Officer
OIG           Office of Inspector General




Cover photo: Construction of a wastewater treatment plant in Tornillo, Texas, funded through
             the Colonias Wastewater Treatment Assistance Program (photo courtesy of EPA
             Region 6)
                       U.S. Environmental Protection Agency 	                                            08-P-0184
                                                                                                      June 23, 2008
                       Office of Inspector General


                       At a Glance

                                                                         Catalyst for Improving the Environment


Why We Did This Review           Millions of Federal Dollars Remain
We conducted an audit of the     for Colonias Projects
Colonias Wastewater
Treatment Assistance Program      What We Found
(CWTAP) because of the large
unliquidated obligation          Nearly 10 years after EPA Region 6 awarded the last CWTAP grant to the Texas
balance in the program almost    Water Development Board (the Board), $78 million still has not been spent. The
a decade after the last grant    Region has taken some positive steps to address unliquidated obligations in the
had been awarded. Our audit      CWTAP, such as working with the Board to establish a schedule for using the
objective was: Has the U.S.
                                 remaining funds. However, Region 6’s oversight of the program has been
Environmental Protection
Agency (EPA) provided the        hindered because work plans lacked project details and operating agreements did
oversight necessary to ensure    not specify corrective actions.
that the Texas Water
Development Board manages        If Region 6 does not improve its oversight of the program, the funds will probably
CWTAP grants so that funds       not be fully spent by the current CWTAP grant fund drawdown projection of
are drawn properly and           2010. Every delay in disbursing CWTAP funds reduces the purchasing power of
projects are completed on        those grant dollars and delays needed improvements in public health and quality
time?                            of life.

Background                       EPA has taken action to address similar issues with more recent grants awarded
                                 under the current U.S.-Mexico Border Program. In August 2007, the Office of
From Fiscal Years 1993           the Chief Financial Officer issued a policy to address funds administration and
through 1999, EPA awarded        provide guidance on appropriate monitoring targets. The goal of this policy is to
assistance agreements (grants)   optimize project completion rates, clarify program oversight, and reduce
totaling $300 million to the     unliquidated balances related to the grant program. EPA needs to adopt a similar
Texas Water Development          process for the CWTAP program, to ensure that project delays will not further
Board for water infrastructure   delay disbursing federal funds and completion of projects.
improvements along the
border in poor, under­            What We Recommend
developed, unincorporated
areas called colonias.           We recommend that the Regional Administrator for Region 6:

                                 1.	 Amend the workplans and/or operating agreements for the open CWTAP
                                     grants to include specific projects, schedules, and dollar amounts.
For further information,
contact our Office of            2.	 Develop and implement a policy, similar to what is contained in the Office of
Congressional and Public             the Chief Financial Officer’s 2007 EPA Policy for the U.S.-Mexico Border
Liaison at (202) 566-2391.           Program, which specifies a process for taking corrective actions when
To view the full report,             projects are delayed.
click on the following link:
www.epa.gov/oig/reports/2008/    EPA concurred with our recommendations and provided timeframes for taking
20080623-08-P-0184.pdf           corrective actions.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL


                                          June 23, 2008
MEMORANDUM

SUBJECT:               Millions of Federal Dollars Remain for Colonias Projects
                       Report No. 08-P-0184


FROM:	                 Melissa M. Heist
                       Assistant Inspector General for Audit

TO:                    Richard Greene
                       Regional Administrator, Region 6


This is the final report on the subject audit conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This audit report contains findings that
describe problems the OIG has identified and corrective actions that the OIG recommends. This
audit report represents the opinion of the OIG and the findings contained in this report do not
necessarily represent the final EPA position. Final determinations on matters in this audit report
will be made by EPA managers in accordance with established audit resolution procedures. We
would like to acknowledge the cooperation and assistance provided by your staff during the
audit.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $90,169.

Action Required

In accordance with EPA Manual 2750, we are closing this report on issuance in our tracking
system. You should track progress of your corrective actions in the Management Audit Tracking
System. In addition, we request that you provide us with the amended workplans and the written
agreement with the Board as you complete the corrective actions.

If you or your staff have any questions regarding this report, please contact me at 202-566-0899
or heist.melissa@epa.gov; or Janet Kasper, Director, Assistance Agreement Audits, at
312-886-3059 or kasper.janet@epa.gov.
Millions of Federal Dollars Remain                                                                                           08-P-0184
for Colonias Projects



                                   Table of Contents 


Chapters
   1     Introduction ...........................................................................................................     1      


                 Purpose ..........................................................................................................   1          

                 Background ....................................................................................................      1          

                 Noteworthy Achievements..............................................................................                2          

                 Scope and Methodology.................................................................................               2          


   2      Region 6 Needs to Improve the Timeliness of CWTAP Fund 

              Disbursements ............................................................................................              3      


                 CWTAP Funds Remain Undisbursed .............................................................                         3

                 Region 6 and the Board Cite Various Reasons for 

                      Delaying Disbursements........................................................................                  4          

                 CWTAP Grant Disbursement Rates and Schedules Prone to Delay .............                                            4

                 Grant Workplans Missing Project Details .......................................................                      5

                 Corrective Actions for Delays not Specified ...................................................                      5

                 Recommendations .........................................................................................            6          

                 Agency Response and OIG Comment ...........................................................                          6


   Status of Recommendations and Potential Monetary Benefits.................................                                         7      




Appendices
   A     Details on Scope and Methodology.....................................................................                        8      


   B     Unliquidated Balance in the CWTAP ...................................................................                        9      


   C     Agency Response .................................................................................................            10 


   D     Distribution ............................................................................................................    12 

                                                                                                           08-P-0184 





                                              Chapter 1
                                               Introduction
Purpose
                    We conducted an audit of the Colonias Wastewater Treatment Assistance
                    Program (CWTAP) because of a large unliquidated obligation balance in the
                    program. Our audit objective was to answer the following question: “Has EPA
                    provided the oversight necessary to ensure that the Texas Water Development
                    Board manages CWTAP grants so that funds are drawn properly and projects are
                    completed on time?”

Background

                    EPA Region 6 awarded five assistance agreements (grants) totaling $300 million to
                    the Texas Water Development Board (the Board) under CWTAP between Fiscal
                    Years (FYs) 1993 through 1999. The grant funds, combined with State funds, were
                    to be used for constructing water1 infrastructure projects along the Texas border
                    with Mexico in poor, underdeveloped areas called colonias. Colonias projects can
                    also be financed through EPA’s current U.S.-Mexico Border program.

                    A colonia is a residential area along the border that may lack some of the most
                    basic living necessities, such as drinking water and sewer systems, electricity,
                    paved roads, and safe and sanitary housing. Outhouses and septic tanks are often
                    the only available means of sewage disposal. Pollutants from both the United
                    States and Mexico contaminate shared waters due to inadequate sewage
                    treatment. The lack of wastewater infrastructure and access to potable water is of
                    great concern because of potentially serious consequences for public health and
                    the effect on quality of life.

                    As of September 2007, 41 colonias projects were completed or still under
                    construction (see Table 1.1). When the remaining projects are completed, EPA
                    projects adequate water facilities for more than 150,000 residents.

                    Table 1.1: Status of Colonias Projects
                                                                 No. of            Colonias             Residents
                             Project Status                     Projects           Affected              Affected
                     Constructed and operating                     24                 153                 72,314
                     Constructed and in close-out                   5                  32                 14,633 

                     Under construction                            12                 220                 69,813 

                     Total                                         41                 405                156,760
                    Source: EPA Region 6 as submitted to the Office of the Chief Financial Officer (data as of
                    September 2007).

1
    For purposes of this report, “water” includes drinking water and wastewater.


                                                            1
                                                                                                         08-P-0184 



Noteworthy Achievements
                  Region 6 has been working with the Board on unliquidated obligations2 since
                  April 2006. Region 6 met with the Board to discuss this issue on several
                  occasions and established a schedule for using the grant funds. In December
                  2007, the Region 6 Director for the Water Quality Protection Division sent a letter
                  to the Board recommending a goal of $27.4 million in grant disbursements during
                  FY 2008.

                  Now, Region 6, the Office of Water, and the Office of the Chief Financial Officer
                  (OCFO) are working together to address unliquidated obligations. Region 6 and
                  the Office of Water prepared a report for OCFO on Texas colonias grants
                  providing information on (1) all completed and ongoing projects, associated costs
                  (EPA and non-EPA), project start and completion dates, and disbursed amounts;
                  (2) all non-construction related expenses, recipients of non-construction funds,
                  and a justification for each non-construction expenditure; and (3) management
                  initiatives and oversight processes. OCFO received this report on November 23,
                  2007, and the first monthly report on February 28, 2008.

Scope and Methodology
                  To answer our objective, we reviewed EPA’s CWTAP grants to the Board,
                  reviewed the amounts paid to the Board for grant expenses, and interviewed EPA
                  and Board managers and staff members. We visited Board offices in Austin,
                  Texas, in September 2007, and reviewed a sample of project files. We performed
                  our work in accordance with generally accepted government auditing standards,
                  issued by the Comptroller General of the United States. We conducted our field
                  work from September to December 2007. For additional details on scope and
                  methodology, see Appendix A.




2
 Unliquidated obligations represent the difference between the amount obligated in the federal grants and the total
amount of outlays against those obligations.


                                                         2

                                                                                                      08-P-0184 





                                             Chapter 2
            Region 6 Needs to Improve the Timeliness of
                   CWTAP Fund Disbursements

                   Nearly 10 years after EPA Region 6 awarded the last CWTAP grant to the Texas
                   Water Development Board (the Board), $78 million still has not been spent. The
                   Region has taken some positive steps to address unliquidated obligations in the
                   CWTAP, such as working with the Board to establish a schedule for using the
                   remaining funds. However, Region 6’s oversight of the program has been
                   hindered because work plans lacked project details and operating agreements did
                   not specify corrective actions. If Region 6 does not improve its oversight of the
                   program, the funds will probably not be fully spent by the current CWTAP grant
                   fund drawdown3 projection of 2010. Every delay in disbursing CWTAP funds
                   reduces the purchasing power of those grant dollars and delays needed
                   improvements in public health and quality of life.

CWTAP Funds Remain Undisbursed
                   Between FYs 1993 and 1999, EPA awarded five grants totaling $300 million to
                   the Board. Region 6 and Board staff stated that the Board used the first-in first-
                   out method for drawing federal funds. This means that the Board drew down
                   funds for work completed on projects from the oldest grant first before drawing
                   down any funds from the next oldest grant. As a result, none of the construction
                   funds associated with the last CWTAP grant awarded (C480001-07) have been
                   spent. The only drawdowns for the FY 1999 grant were for the $2 million EPA
                   allowed for administrative expenses. As of December 31, 2007, the Board had
                   not disbursed $78,252,634 in CWTAP funds. Table 2.1 provides a summary of
                   CTWAP funds not disbursed, while Appendix B provide further details.

                   Table 2.1: CWTAP Funds Not Disbursed
                          Grant Number                   Project Period             Unliquidated Balance
                            C480001-05             10/01/1996 – 09/30/2008             $15,019,505.69
                            C480001-06             01/01/1999 – 12/31/2008             $15,233,128.11
                            C480001-07             01/01/1999 – 12/31/2008             $48,000,000.00
                              Total                                                    $78,252,633.80
                   Source: EPA’s Integrated Financial Management System




3
    The term “drawdown” represents the money EPA has paid to the Board for disbursements under the grants.


                                                         3
                                                                                  08-P-0184 



Region 6 and the Board Cite Various Reasons for
Delaying Disbursements
          Region 6 and Board managers and staff members cited many factors for the slow
          pace of disbursements:

          •	 Slow adoption of model subdivision rules.
          •	 Large increases in construction costs between the time projects were designed
             and communities were ready to break ground.
          •	 Complexities of working with multiple funding sources.
          •	 Poorly organized colonias tend to lack access to resources.

          According to Region 6 and Board staff, the Board was using State funds first to
          pay for wastewater projects, and then using federal grant funds. This method
          contributed to delays in using federal funds. In 2006, Region 6 instructed the
          Board to spend federal money committed to projects before spending State funds
          to increase the disbursement rate.

CWTAP Grant Disbursement Rates and Schedules Prone to Delay
          According to a Region 6 Branch Chief, since April 2006, Region 6 has increased
          oversight of the disbursement rate of the CWTAP program because of the
          pressures within the Agency to address unliquidated obligations. In August 2006,
          the Director of Region 6’s Water Quality Protection Division and members of his
          staff visited the Board to discuss the unliquidated obligations issue in the CWTAP
          and other funds. As a result of that visit, the Board issued a report on
          December 7, 2006, entitled Comprehensive Plan – Addressing Unliquidated
          Obligations. This plan was intended to address the unliquidated obligations issue
          in the CWTAP and other EPA-funded programs. The plan contained a
          disbursement schedule for the CWTAP, which showed that all of the funds would
          be disbursed by December 31, 2008.

          Since issuing the plan, the Board has revised the funds disbursement schedule
          twice. The March 2007 schedule showed that all of the CWTAP funds should be
          disbursed by March 31, 2010. Three months later, in June 2007, the Board
          revised the schedule again to show that all of the CWTAP funds would be
          disbursed by June 30, 2010. The Board revised the schedule because the pace of
          drawdowns did not keep up with projections, and since the June 2007 revision,
          they still have not kept up. The schedule projected an unliquidated balance of
          $72.3 million on December 31, 2007, but the unliquidated obligation balance on
          December 31, 2007, was actually $78.3 million – a $6 million difference. The
          schedule will have to be revised again if the pace of actual drawdowns continues
          to not keep up with projections.

          At the end of April 2006, the unliquidated balance was $104 million. From May
          2006 through December 2007 (20 months), nearly $26 million had been


                                           4

                                                                                  08-P-0184 



          disbursed. At that pace, it would take another 5 years to spend the remaining
          amount of money (i.e., until December 2012), thereby missing the current
          projected deadline of June 2010.

Grant Workplans Missing Project Details
          Region 6’s oversight of the CWTAP grants was hindered by not having detailed
          workplans. Office of Management and Budget Circular A-102 states that in
          program narrative statements for grant applications, agencies are to require
          recipients to define the objectives and need for assistance, establish expected
          completion dates, and identify costs. The CWTAP workplan described the
          purpose of the funds and what projects would be eligible for funding. The
          workplan referenced an operating agreement that included specific requirements
          regarding eligible use of funds, grant payments, reporting requirements, fiscal
          controls, and oversight. Neither the workplan nor operating agreement identified
          specific projects that would be funded or schedules for completing the projects.
          Without that information, EPA did not have a basis for evaluating progress the
          Board made in completing projects. The Board provides information on project
          status, completion dates, and disbursements in monthly status reports to Region 6,
          but the information is not included in the workplans.

Corrective Actions for Delays Not Specified
          Region 6 did not take action when programmatic conditions related to
          disbursements were not met in the last CWTAP grant awarded (Grant Number
          C480001-07). That grant’s award document included a schedule for disbursing
          funds. The award document identified, by quarter of the fiscal year, the amount
          of funds the Board was expected to draw down under the grant. The Region 6
          project officer stated that he reviewed monthly reports to assess the progress of
          projects and drawdowns. However, while the grant was awarded in 1998, it was
          not until 2006 that EPA began to address noncompliance with the award condition
          on drawdown of funds.

          Region 6 and the Board have set goals for disbursing the remaining funds for the
          grants, but EPA has not imposed any corrective action plans on the Board when
          delays occur. The Region 6 Director of the Water Quality Protection Division
          stated that when goals are not met then EPA must change its oversight. The
          Board established a plan for using funds in 2006, and revised that plan twice in
          2007. No mention was made of what actions would be taken if the disbursement
          schedule was not met. Region 6 issued a letter to the Board in December 2007
          with a goal of $27.4 million in disbursements during FY 2008, but it did not
          identify what would happen if that goal was not met.

          EPA has taken action to address similar issues with grants awarded for the current
          U.S.-Mexico Border Program. In August 2007, EPA issued a policy that was
          designed to address funds administration and provide guidance on appropriate


                                           5

                                                                                 08-P-0184 



        monitoring targets to optimize project completion rates, clarify program
        oversight, and reduce unliquidated balances related to the grant program. The
        policy defined stalled projects and required that corrective action plans be
        developed, including:

            (1) construction milestones leading to project completion,
            (2) projected disbursements associated with those milestones,
            (3) quantification of the benefited population,
            (4) the number of new drinking water and wastewater connections supported
                by the project, and
            (5) potential disruptions to the completion schedule and mitigation strategies.

         EPA needs to adopt a similar process for the CWTAP program to ensure that
         project delays will not further delay disbursement of federal funds and
         completion of projects.

Recommendations
        We recommend that the Regional Administrator for Region 6:

        1. 	 Amend the workplans and/or operating agreements for the open CWTAP
             grants to include specific projects, schedules, and dollar amounts.

        2.	 Develop and implement a policy, similar to what is contained in the OCFO’s
            2007 EPA Policy for the U.S.-Mexico Border Program, which specifies a
            process for taking corrective actions when projects are delayed.

Agency Response and OIG Comment
        EPA Region 6 concurred with both recommendations. Region 6 stated that it was
        going to meet with Board staff to amend the workplans for the remaining three
        CWTAP grants with unspent funds to specify projects, provide funding amounts,
        and establish schedules. Region 6 also pledged to develop an agreement with the
        Board establishing formal measures for project progress and completion.
        Region 6 plans to complete both tasks within 90 days of the issuance of this final
        audit report. The full text of the Agency response is in Appendix C.

        We agree with Region 6’s proposed corrective actions and timeframes for
        completing them.




                                         6

                                                                                                                                      08-P-0184



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                            POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                Planned
    Rec.    Page                                                                                               Completion   Claimed    Agreed To
    No.      No.                         Subject                          Status1        Action Official          Date      Amount      Amount

     1        6     Amend the workplans and/or operating agreements         O        Regional Administrator,    9/22/08
                    for the open CWTAP grants to include specific                          Region 6
                    projects, schedules, and dollar amounts.

     2        6     Develop and implement a policy, similar to what is      O        Regional Administrator,    9/22/08
                    contained in the OCFO’s 2007 EPA Policy for the                        Region 6
                    U.S.-Mexico Border Program, which specifies a
                    process for taking corrective actions when projects
                    are delayed.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                7

                                                                                         08-P-0184 



                                                                                     Appendix A

                 Details on Scope and Methodology

We performed our work in accordance with generally accepted government auditing standards,
issued by the Comptroller General of the United States. These standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

We performed audit field work from September to December 2007. We analyzed the laws,
regulations, and guidance pertaining to grants awarded to the Board. We reviewed internal
controls related to planning, organizing, directing, and controlling program operations. We also
reviewed controls for measuring, reporting, and monitoring program performance. We gained an
understanding of internal controls through performing the procedures outlined below.

   •	 We interviewed managers and staff members at EPA Region 6 in Dallas, Texas. We
      assessed the Performance Standards for the project officer and grants specialist to
      determine the tasks they were responsible for related to the program. We reviewed
      documentation of Region 6 Water Quality Protection Division managers and staff
      members communicating with the Board on the importance of quickening the pace of
      drawdowns from the CWTAP grants. We reviewed the Texas Colonias Grants Report
      (November 21, 2007, version) submitted to the OCFO.

   •	 With regard to the grants, we examined EPA’s grant files, and reviewed award
      documents, amendments, work plans, decision memoranda, and operating agreements.
      We researched the funds available for these grants through EPA’s Integrated Grants
      Management System, Integrated Financial Management System, and various grant award
      documents.

   •	 We visited the State office in Austin, Texas, interviewed Board personnel, and reviewed
      a judgmental sample of project files, an internal auditor report, and the Board’s outlay
      retrieval procedure. The Board appears to have adequate controls in place to mitigate the
      risk of inappropriate drawdowns. During our visit, we saw evidence related to how the
      Board draws down funds, including an outlay checklist and a payments routing slip. We
      also saw multiple signatures from personnel in different departments on documents, such
      as contract initiation forms and grant closing information sheets.




                                                 8

                                                                                            08-P-0184 



                                                                                        Appendix B

                  Unliquidated Balance in the CWTAP

From FYs 1993 through 1999, EPA awarded five grants to the Board for the CWTAP totaling
$300 million. The project period represents the amount of time EPA expects the recipient will
need to complete the projects. The term “drawdown” represents the money EPA has paid to the
Board for disbursements under the grants. The unliquidated balance is the money EPA awarded
to the Board but the Board has not spent as of December 31, 2007 (that is, the difference between
the award amount and the drawdowns).

                                                                                        Unliquidated
                                                                       Drawdowns          Balance
    Grant           Award                                   Award         (as of           (as of
   Number            Date        Project Period             Amount     12/31/2007)      12/31/2007)
                                  12/22/1992 –
 C480001-02        12/22/92                             $50,000,000      $50,000,000               $0
                                   09/30/2005
                                  02/01/1995 –
 C480001-04        01/20/95                            $100,000,000     $100,000,000               $0
                                   09/30/2007
                                  10/01/1996 –
 C480001-05        03/05/96                             $50,000,000    $34,980,494.31   $15,019,505.69
                                   09/30/2008
                                  01/01/1999 –
 C480001-06        12/18/98                             $50,000,000    $34,766,871.89   $15,233,128.11
                                   12/31/2008
                                  01/01/1999 –
 C480001-07        12/18/98                             $50,000,000       $2,000,000      $48,000,000
                                   12/31/2008

    Totals                                             $300,000,000   $221,747,366.20   $78,252,633.80
Source: EPA’s Integrated Financial Management System




                                                       9

                                                                                      08-P-0184 




                                                                                  Appendix C

                                Agency Response

                                         May 28, 2008

MEMORANDUM

SUBJECT:	 Draft Audit Report (4/28/2008):
          Millions of Federal Dollars Remain For Colonias Projects
          Assignment No. 2007-0990

FROM:         Richard E. Greene
              Regional Administrator (6RA)

TO:	          Janet Kasper, Director of Assistance Agreements Audits
              Office of Inspector General (IA-13J)

        Thank you for providing the opportunity to comment on the Office of Inspector General’s
(OIG) Draft Audit Report: Millions of Federal Dollars Remain For Colonias Projects
(4/28/2008). We appreciate the OIG’s acknowledgement of program achievements in the draft
audit report. Attached please find our response to the draft audit report recommendations.

        Should you have any questions regarding these comments, please contact
Miguel I. Flores, Water Quality Protection Division Director at (214) 665-7101, or have your
staff contact Susan Spalding at (214) 665-8022.

Attachment




                                              10

                                                                                        08-P-0184 



Response to Recommendations Prepared by Region 6 Water Quality Protection Division

         OIG Audit Report: Millions of Federal Dollars Remain for Colonias Projects
                                        April 28, 2008


Proposed OIG Recommendations:

   1.	      Amend the workplans and/or operating agreements for the open CWTAP grants to
            include specific projects, schedules, and dollar amounts.

            Action Official: Region 6 Administrator

            Response: Concur. Region 6 staff has scheduled a meeting with the Texas Water
            Development Board (TWDB) staff on May 29, 2008 to initiate coordination in our
            effort to amend the workplans for the three active grants CWTAP III, IV and V. The
            workplans and/or operating agreements will be revised to identify specific projects,
            funding amounts and schedules for each of these three active grants.

            Timeframe for Implementation: Region 6 will implement this recommendation
            within 90 days from issuance of the final report.

   2.	      Develop and implement a policy, similar to what is contained in the OCFO’s 2007
            EPA Policy for the U.S.-Mexico Border Program, which specifies a process for
            tracking corrective actions when projects are delayed.

            Action Official: Region 6 Administrator

            Response: Concur. Region 6 agrees that preparation of such an agreement will
            benefit the program in its expeditious use of CWTAP funding and implementation to
            complete active projects under construction. Region 6 staff has scheduled a meeting
            with the Texas Water Development Board (TWDB) staff on May 29, 2008 to discuss
            and draft an agreement that will identify necessary measures to ensure timely project
            execution, project completion and minimize project delays.

            Timeframe for Implementation: Region 6 will implement this recommendation
            within 90 days from issuance of the final report.




                                                11

                                                                                   08-P-0184


                                                                                 Appendix D

                                      Distribution

Office of the Administrator
Regional Administrator, Region 6
Deputy Director, Office of Wastewater Management, Office of Water
Director, Water Quality Protection Division, Region 6
Chief, Assistance Programs Branch, Water Quality Protection Division, Region 6
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Region 6
Audit Follow-up Coordinator, Office of Water
Office of General Counsel
Deputy Inspector General




                                               12

